                                                 NATIONAL SCIENCE FOUNDATION
                                                  OFFICE OF INSPECTOR GENERAL
                                                     OFFICE OF INVESTIGATIONS

                                               CLOSEOUT MEMORANDUM

   Case Number: At 0080060                                                               Page 1 of 1



           We conducted an investigative review of the subject'sl awarded NSFproposa1. 2 It was alleged
           that the proposal contained questioned text and one questioned figure from multiple source
           documents. After writing to the subject, our review concluded that, while no plagiarism
           occurred, some of the source text with references could have been more appropriately cited if
           quotation marks were included. We sent the subject a questionable research practice letter.

           Accordingly, this case is closed.




. NSF OIG Fonn 2 (11102)
